*•

\

l

“Appendix A”
4

Case: 20-3220

Document: 6

Page: 1

Date Filed: 03/01/2021

OFFICE OF THE CLERK

PATRICIA S. DODSZUWEIT
CLERK

United States Court of Appeals
FOR THE THIRD CIRCUIT
21400 UNITED STATES COURTHOUSE
601 MARKET STREET
PHILADELPHIA, PA 19106-1790

TELEPHONE

215-597-2995

Website: www.ca3.uscourts.gov

March 1, 2021
Jennifer O. Andress, Esq.
Philadelphia County Office of District Attorney
3 South Penn Square
Philadelphia, PA 19107
Shawn Bishop
Chester SCI
500 East 4th Street
Chester, PA 19013
Ronald Eisenberg, Esq.
Office of Attorney General of Pennsylvania
1600 Arch Street
Suite 300
Philadelphia, PA 19103

RE: Shawn Bishop v. Superintendent Smithfield SCI, et al
Case Number: 20-3220
District Court Case Number: 2-14-cv-04903
ENTRY OF JUDGMENT
Today, March 01, 2021 the Court issued a case dispositive order in the above-captioned matter
which serves as this Court's judgment. Fed. R. App. P. 36.
If you wish to seek review of the Court's decision, you may file a petition for rehearing. The
procedures for filing a petition for rehearing are set forth in Fed. R. App. P. 35 and 40, 3rd Cir.
LAR 35 and 40, and summarized below.
Time for Filing:
14 days after entry of judgment.
45 days after entry of judgment in a civil case if the United States is a party.

Case: 20-3220

Document: 6

Page: 2

Date Filed: 03/01/2021

Form Limits:
3900 words if produced by a computer, with a certificate of compliance pursuant to Fed. R. App.
P. 32(g).
15 pages if hand or type written.
Attachments:
A copy of the panel's opinion and judgment only.
Certificate of service.
Certificate of compliance if petition is produced by a computer.
No other attachments are permitted without first obtaining leave from the Court.
Unless the petition specifies that the petition seeks only panel rehearing, the petition will be
construed as requesting both panel and en banc rehearing. Pursuant to Fed. R. App. P. 35(b)(3),
if separate petitions for panel rehearing and rehearing en banc are submitted, they will be treated
as a single document and will be subject to the form limits as set forth in Fed. R. App. P.
35(b)(2). If only panel rehearing is sought, the Court's rules do not provide for the subsequent
filing of a petition for rehearing en banc in the event that the petition seeking only panel
rehearing is denied.
Please consult the Rules of the Supreme Court of the United States regarding the timing and
requirements for filing a petition for writ of certiorari.
Very truly yours,
Patricia S. Dodszuweit, Clerk
By: s/ Marianne
Legal Assistant
267-299-4911

February 18,2021
BLD-100
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-3220
SHAWN BISHOP, Appellant
VS.
SUPERINTENDENT SMITHFIELD SCI, ET AL.
(E.D. Pa. Civ. No. 2-14-cv-04903)
Present: AMBRO, SHWARTZ and PORTER. Circuit Judges
Submitted is Appellant’s motion for a certificate of appealability under
28 U.S.C. § 2253(c)(1)
in the above-captioned case.
Respectfully,

Clerk
________________________________ORDER_________________________________
The foregoing request for a certificate of appealability is denied because Appellant
has not made a substantial showing of the denial of a constitutional right. See 28 U.S.C.
§ 2253(c)(2). Jurists of reason could not debate the District Court’s determination, see
Slack v. McDaniel. 529 U.S. 473, 484 (2000), that Appellant’s claims are either
exhausted but lack merit, or are procedurally defaulted claims of ineffective assistance of
trial counsel that are not “substantial” under Strickland v. Washington, 466 U.S. 668,__
687, 694 (1984), to excuse procedural default under Martinez v. Ryan, 566 U.S. 1 (2012).
We make our determination primarily for the reasons explained by the District Court.
By the Court,

.o*V..°.r.V'

s/Patty Shwartz
Circuit Judge
A True Copy:0

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

“Appendix B ”

UNITED STATES DISTRICT COURT OF THE THIRD CIRCUIT / 2020 / 2020 U.S. Dist.
LEXIS 49988::Bishop v. Fisher::March 23, 2020
_______

SHAWN BISHOP v. JON FISHER, et al.
UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF PENNSYLVANIA
2020 U.S. Dist. LEXIS 49988
CIVIL ACTION No. 14-4903
March 23, 2020, Decided
March 23, 2020, Filed
Editorial Information: Prior History
Bishop v. Luther, 2019 U.S. Dist. LEXIS 95986 (E.D.
Pa., June 5, 2019)
{2020 U.S. Dist. LEXIS
11SHAWN BISHOP. Petitioner, Pro se,
HUNTINGDON, PA.
JON
For
FISHER, THE DISTRICT ATTORNEY OF
THE COUNTY OF PHILADELPHIA, THE
ATTORNEY GENERAL OF THE STATE OF
PENNSYLVANIA, Respondents: JENNIFER
O. ANDRESS, PHILADELPHIA DISTRICT
ATTORNEY'S OFFICE, PHILADELPHIA,
PA.
Judges: Juan R. Sanchez, C.J.
Counsel

UNITED STATES DISTRICT COURT OF THE THIRD CIRCUIT / 2020 / 2020 U.S. Dist.
LEXIS 49988::Bishop v. Fisher::March 23, 2020 / Opinion

Opinion
Opinion by:

Juan R. Sanchez
Opinion

MEMORANDUM
Juan R. Sanchez, C.J.

On November 12, 2003, following a jury trial in the
Philadelphia County Court of Common Pleas,
Bishop was found guilty of first-degree murder and
criminal conspiracy to commit murder. He was
sentenced to an aggregate term of life
imprisonment. Bishop timely appealed his judgment
of sentence to the Pennsylvania Superior{2020 U.S.
Dist. LEXIS 2} Court. The Superior Court affirmed.
Bishop did not initially appeal this decision to the
Pennsylvania Supreme Court.
On July 21,2006, Bishop sought collateral relief
pursuant to Pennsylvania's Post-Conviction Relief
Act (PCRA), 42 Pa. Cons. Stat. § 9501, et seq.
Counsel was appointed to represent Bishop. On
October 22, 2007, the PCRA court granted Bishop
limited relief, reinstating his right to appeal his
judgment of sentence to the Pennsylvania Supreme
Court. On April 22, 2008, the Pennsylvania Supreme
Court denied Bishop's petition for allowance of
appeal. Bishop subsequently filed two additional
PCRA petitions in 2006 and 2014. In both petitions
counsel was appointed to represent Bishop. The
PCRA court denied both petitions, and the Superior
Court subsequently affirmed..
On August 13, 2014, Bishop filed the instant Petition
for Writ of Habeas Corpus Under 28 U.S.C. § 2254.
The petition asserts seven grounds for habeas relief
including Sixth Amendment compulsory process and
ineffective assistance of counsel claims. On June 5,
2019, Judge Sitarski issued the R&R, which
recommends the Court deny Bishop's petition with
prejudice and dismiss it without an evidentiary
hearing because it raises procedurally defaulted,
meritless, and noncognizable claims. On July 5,
2019, Bishop filed{2020 U.S. Dist. LEXIS 3}
objections to the R&R pursuant to 28 U.S.C. §
636(b)(1). On September 12, 2019, Bishop filed a
supplement to his objections. 1
DISCUSSION

Pro se Petitioner Shawn Bishop seeks relief from
his state custodial sentence pursuant to 28 U.S.C. $
2254. United States Magistrate Judge Lynne A.
Sitarski issued a Report & Recommendation (R&R)
recommending this Court deny Bishop relief
because his claims are procedurally defaulted,
meritless, and noncognizable on habeas review.
Bishop now objects to the R&R's recommendation.
Because the Court finds no error in the R&R's
analysis and Bishop's objections meritless, the Court
will overrule the objections, approve and adopt the
R&R, and deny the petition.

1yccases

BACKGROUND

Because the Court finds no error in the R&R's
analysis and Bishop's objections meritless, the Court
will overrule the objections. The Court reviews de
novo "those portions of the report or specified
proposed findings or recommendations to which
objection is made." 28 U.S.C. § 636(b)(1). Bishop's
objections are duplicative of the arguments he
raised in his habeas petition and briefing. In the
R&R, Judge Sitarski gave careful and thorough
consideration to each of Bishop's claims. After de
novo review of the record, the R&R, and Bishop's

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions and terms and
conditions of the Matthew Bender Master Agreement.

•

objections, the Court finds no error in the R&R's
analysis of Bishop's claims. The Court will therefore
overrule Bishop's objections for the reasons stated
in the R&R. The Court will, however, briefly address
Bishop's argument that the R&R erred in finding his
Sixth Amendment compulsory process claim
unexcused from procedural default.
In ground one of the petition, Bishop asserts his
Sixth Amendment right to compulsory process was
violated when the trial court prevented the parents of
his co-defendant, Kamil McFadden, from testifying
about an alleged conversation with unavailable
government{2020 U.S. Dist. LEXIS 4} witness,
Harry Gadson.2 See Pet. 1, App. A. The R&R found
this claim procedurally defaulted because it was not
previously presented in state court. Further, the R&R
determined this claim is not excused from
procedural default because Bishop failed to show (1)
cause for the default and actual prejudice; or (2) that
failure to consider the claim will result in a
fundamental miscarriage of justice. See Edwards v.
Carpenter, 529 U.S. 446. 452-53, 120 S. Ct. 1587,
146 L. Ed. 2d 518 (2000). The R&R alternatively
found that, even if this claim is excused from
procedural default, it is meritless because the
proffered testimony was properly excluded as
hearsay and Bishop failed to show how this
exclusion violated his constitutional rights. Bishop
objects based on the arguments stated in his reply
brief in support of his habeas petition. He asserts
"[a] criminal defendant has a constitutional right to
present a defense, and present witnesses in his
favor." Reply in Supp. of Pet. 23. The Court finds no
error in the R&R's analysis because Bishop has not
demonstrated this claim is excused from procedural
default and, even assuming it is excused, it is
meritless and he is not entitled to relief.
Initially, Bishop has failed to show this claim is
excused from procedural default. As{2020 U.S. Dist.
LEXIS 5} noted, there are two exceptions from
procedural default: (1) cause and prejudice, and (2)
a fundamental miscarriage of justice. To
demonstrate cause and prejudice, Bishop must
show his failure to present this claim to the state
court resulted from "some objective factor external
to the defense [that] impeded counsel's efforts to
comply with the State's procedural rule." See
Slutzker v. Johnson, 393 F.3d 373, 381 (3d Cir.
2004) (quoting Murray v. Carrier, 477 U.S. 478. 488,
106 S. Ct. 2639, 91 L. Ed. 2d 397 (1986)).
Alternatively, to excuse his default under the
"fundamental miscarriage of justice" exception,
Bishop must demonstrate actual innocence. See
Schlup v. Delo, 513 U.S. 298. 324-26, 115 S. Ct.

lyccases

851, 130 L. Ed. 2d 808 (1995). Bishop has failed to
show either cause and prejudice or actual
innocence. For this reason alone, this claim fails.^
Regardless, even assuming Bishop's claim is not
procedurally defaulted, it is meritless.
The Sixth Amendment right to compulsory process
"protects the presentation of the defendant's case
• from unwarranted interference by the government,
be it in the form of an unnecessary evidentiary rule,
a prosecutor’s misconduct, or an arbitrary ruling by
the trial judge." See Gov't of V.l. v. Mills, 956 F.2d
443. 445, 27 V.l. 353 (3d Cir. 1992). To establish a
violation of this right, Bishop must show: "[1] that he
was deprived of the opportunity to present evidence
in his favor; [2] that the excluded testimony
would{2020 U.S. Dist. LEXIS 6} have been material
and favorable to his defense; and [3] that the
deprivation was arbitrary or disproportionate to any
legitimate evidentiary or procedural purpose." United
States v. Zemba, 59 F. App'x 459, 467 (3d Cir.
2003) (quoting Mills, 956 F.2d at 446). A judge’s
decision to exclude an inadmissible hearsay
statement fails to satisfy the arbitrary or
disproportionate prong. See Richardson v. Gov't of
V.L, 55 V.l. 1193, 2011 WL 4357329, at *5-7 (D.V.I.
2011) (finding the trial court's decision to exclude
hearsay testimony was not a ground for relief under
the compulsory process clause), affd sub nom.
Gov't of V.l. v. Richardson, 513 F. App'x 199 (3d Cir.
2013).
The trial judge's decision to exclude testimony from
McFadden's parents about an alleged conversation
with Gadson, an unavailable government witness,
was not arbitrary.^ McFadden's parents would have
testified that "Gadson approached them several
months after he testified at the preliminary hearing
and apologized to them for testifying against their
son, stating that the police forced him to do so." See
Mem., Commonwealth v. Bishop, No. 343 EDA
2004, at 3-4 (Pa. Super. Ct. July 22, 2005). As the
trial judge and the R&R found, the proffered
testimony from McFadden's parents is hearsay. It
seeks to introduce Gadson's out-of-court statement
to establish that he lied at Bishop and McFadden's
preliminary hearing. See Pa. R. Evid. 801(c)
("'Hearsay' means a statement that (1) the declarant
does not make while testifying at the current
trial{2020 U.S. Dist. LEXIS 7} or hearing; and (2) a
party offers in evidence to prove the truth of the
matter asserted in the statement."). Moreover, the
proffered hearsay testimony is not subject to an
exception under the Pennsylvania Rules of
Evidence. See, e.g., Pa. R. Evid. 802 ("Hearsay is

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of ,this product is subject to the restrictions and terms and
conditions of the Matthew Bender Master Agreement.

*

not admissible except as provided by these rules, by
other rules prescribed by the Pennsylvania Supreme
Court, or by statute."). The proffered testimony is
thus inadmissible hearsay. As a result, the trial
judge's decision to exclude the testimony of
McFadden's parents regarding Gadson’s statements
was not arbitrary and this claim is meritless. See
Richardson, 55 V.l. 1193, 2011 WL 4357329, at
*5-7. Therefore, even assuming Bishop's claim is
excused from procedural default, it is meritless and
he is not entitled to relief.
CONCLUSION

Isl Juan R. Sanchez
Juan R. Sanchez, C.J.
UNITED STATES DISTRICT COURT OF THE THIRD CIRCUIT I 2020 / 2020 U.S. Dist.
LEXIS 49988::Bishop v. Fisher: :March 23, 2020 / Footnotes

Footnotes

1

In sum, because the Court finds no error in the
R&R's analysis and Bishop's objections meritless,
the Court will overrule the objections, approve and
adopt the R&R, and deny the petition.
An appropriate order follows.
BY THE COURT:
' Is/ Juan R. Sanchez
Juan R. Sanchez, C.J.
ORDER
AND NOW, this 23rd day of March, 2020, upon
careful consideration of pro se Petitioner Shawn
Bishop's Petition Under 28 U.S.C. § 2254 for Writ of
’ Habeas Corpus, and after independent review of the
June 5,{2020 U.S. Dist. LEXIS 8} 2019, Report and
Recommendation of United States Magistrate Judge
Lynne A. Sitarski and Bishop's objections thereto, it
is ORDERED:
1. Bishop's objections (Document 37 & 39) are
OVERRULED.
2. The Report and Recommendation (Document
33) is APPROVED and ADOPTED.
3. Bishop's Petition Under 28 U.S.C. § 2254 for
Writ of Habeas Corpus (Document 1) is DENIED
with prejudice and DISMISSED without an
evidentiary hearing.
4. Judgment is entered in favor of Respondents.
5. Because Bishop has not made a substantial
showing of the denial of a constitutional right,
i.e., that reasonable jurists would disagree with
this Court's procedural or substantive rulings on
Bishop's claims, a certificate of appealability
shall not issue. See 28 U.S.C. § 2253(c)(2):
Slack v. McDaniel; 529 U.S. 473. 483-84, 120 S.
Ct. 1595, 146 L. Ed. 2d 542 (2000).
BY THE COURT:

lyccases

The Clerk of Court is DIRECTED to mark this case
closed.

Although the supplement to his objections was filed
outside of the 14-day period for Bishop to timely
object to the R&R, see Local R. Civ. P. 72.1(IV)(a),
the Court has nevertheless considered them, see
Perez-Barron v. United States, No. 09-0173, 2010
U.S. Dist. LEXIS 86321.2010 WL 3338762, at *1
(W.D. Pa. Aug. 23, 2010) (considering objections to
a report and recommendation even though they
were untimely filed).
2
Although Bishop styles this claim as a Fourteenth
Amendment due process claim, it is properly
characterized as a Sixth Amendment compulsory
process claim.
3
Bishop argues the R&R should have applied the
procedural default exception test set forth in
Martinez v. Ryan, 566 U.S. 1, 132 S. Ct. 1309, 182
L. Ed. 2d 272 (2012) rather than the test set forth in
Edwards v. Carpenter. 529 U.S. 446, 120 S. Ct.
1587, 146 L. Ed. 2d 518 (2000). Bishop's argument
is misguided. Martinez applies where a petitioner is
raising a claim of ineffective assistance of trial
counsel. Here, Bishop is asserting a Sixth
Amendment compulsory process claim. Therefore,
Martinez does not apply. Regardless, even if
Martinez applied, his claim would still fail because,
as discussed below, it is meritless. See id. at 14
(stating, to excuse an unexhausted claim of
ineffective assistance of counsel, a petitioner must
show that the underlying claim is "a substantial one,
which is to say that the prisoner must demonstrate
the claim has some merit").
4
For the purposes of this analysis, the Court assumes
Bishop was deprived of an opportunity to present
evidence and McFadden's parent's testimony was
material and favorable to his defense.

3

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions and terms and
conditions of the Matthew Bender Master Agreement.

V

)

“Appendix C”

UNITED STATES DISTRICT COURT OF THE THIRD CIRCUIT / 2019 / 2019 U.S. Dist.
LEXIS 95986::Bishop v. LutheruJune 5, 2019

SHAWN BISHOP. Petitioner, v. JAMEY LUTHER,1 et
al., Respondents.
UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF PENNSYLVANIA
2019 U.S. Dist. LEXIS 95986
CIVIL ACTION NO. 14-CV-4903
June 5, 2019, Decided
June 5, 2019, Filed
Editorial Information: Subsequent History
Adopted by, Objection overruled by, Writ of habeas
corpus denied, Dismissed by Bishop v. Fisher, 2020
U.S. Dist. LEXIS 49988 (E.D. Pa., Mar. 23, 2020)
Editorial Information: Prior History
Commonwealth v. Bishop, 883 A.2d 684, 2005 Pa.
Super. LEXIS 2536 (Pa. Super. Ct„ July 22, 2005)
{2019 U.S. Dist. LEXIS
1}SHAWN BISHOP, Petitioner, Pro se,
HUNTINGDON, PA.
For
JON
FISHER, THE DISTRICT ATTORNEY OF
THE COUNTY OF PHILADELPHIA, THE
ATTORNEY GENERAL OF THE STATE OF
PENNSYLVANIA, Respondents: JENNIFER
O. ANDRESS, PHILADELPHIA DISTRICT
ATTORNEY'S OFFICE, PHILADELPHIA,
PA.
Judges: LYNNE A. SITARSKI, UNITED STATES
MAGISTRATE JUDGE.
Counsel

UNITED STATES DISTRICT COURT OF THE THIRD CIRCUIT / 2019 I 2019 U.S. Dist.
LEXIS 95986::Bi$hop v. LutheruJune 5, 2019 / Opinion

Opinion
Opinion by:

LYNNE A. SITARSKI
Opinion

REPORT AND RECOMMENDATION
LYNNE A. SITARSKI
UNITED STATES MAGISTRATE JUDGE
Before the Court is a pro se Petition for Writ of
Habeas Corpus filed pursuant to 28 U.S.C. § 2254
by Shawn Bishop ("Petitioner"), an individual

lyccases

currently incarcerated at the State Correctional
Institution-Smithfield. This matter has been referred
to me for a Report and Recommendation. For the
following reasons, I respectfully recommend that the
petition for habeas corpus be DENIED.
I. FACTUAL AND PROCEDURAL HISTORY2
The Pennsylvania Superior Court provided the
following facts in its decision affirming Petitioner's
judgment of sentence:
On April 23, 2001, Officer James Abadie was
working radio patrol duties with his partner
Officer Hogue when they received a call at
around 12:30 A.M. to go to 1220 South 18th
Street in South Philadelphia. When Officer
Abadie responded to the{2019 U.S. Dist. LEXIS
2} call, he observed a gray Chevy Caprice with
the passenger's door open. The decedent,
Asmar Byron Davis, was slumped over in the
passenger seat with his eyes closed and blood
on his T-shirt. Mr. Davis appeared to have been
shot multiple times in the neck, chest and face
and the officer felt no vital signs. The post
mortem examination confirmed that the cause of
Mr. Davis' death was multiple gunshot wounds.
On the evening of April 22, 2001, at around
11:00 P.M., Darren Birch was driving in the 500
block of Cross Street in Philadelphia when he
saw Mr. Davis. The two men were hungry, so
Mr. Davis got into the passenger's side of Mr.
Birch's car and, together, they went to South
Street to get some pizza. After they drove
around for a little while, the two headed back to
Mr. Birch's house at 1218 South 18th Street. Mr.
Birch agreed to let Mr. Davis borrow his car for
the night if Mr. Davis agreed to pick Mr. Birch up
at a club later in the night. Mr. Birch parked
outside his house and was about to run inside to
change his shoes when he heard a series of
about seven to ten gunshots and saw flashes of
light coming in through the passenger side
window. After the shots ended, Mr. Birch got
out{2019 U.S. Dist. LEXIS 3} of the car and
called the police.
The same evening, three men, Harry Gadson,
and defendants [Petitioner] and [Petitioner's
co-defendant] McFadden, were also driving
around in South Philadelphia. Mr. Gadson
relayed that at some point when the three rode
around, defendant McFadden instructed
[Petitioner] to pull over and park at 17th and
Federal Streets. [Petitioner] parked the car and
Defendant McFadden got out and ran toward .

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions and terms and
conditions of the Matthew Bender Master Agreement.

the parked Caprice. When Mr. Gadson asked
[Petitioner] where defendant McFadden was
going, [Petitioner] said that McFadden was
going to "merk” Mr. Davis, meaning that he was
going to murder Mr. Davis. Mr. Gadson then
heard a series of gunshots and about one
minute later, defendant McFadden returned to
[Petitioner's] car. Defendant McFadden, while
bragging about killing Davis, racked his gun to
show it was empty. After [Petitioner] drove away,
they rode around for approximately 15-20
minutes and then dropped off Mr. Gadson.
Rahjai Black, an acquaintance of the defendants
from the neighborhood, saw and altercation
between Mr. Gadson and defendant McFadden
ensue because defendant McFadden was angry
that Mr. Gadson was "telling his business." On
more than one occasion,{2019 U.S. Dist. LEXIS
4} defendant McFadden told Mr. Black that he
followed Mr. Davis, put on a mask and shot him
several times in the chest and head. According
to Mr. Black, defendant McFadden often
bragged about killing Mr. Davis, but was angry
at Mr. Gadson for telling other people about this
incident because it was not his business. Mr.
Black also testified that defendant McFadden
mentioned that he had been paid to kill Mr.
Davis.Commonwealth v. Bishop, No. 343 EDA
2004, slip op. at 1-3 (Pa. Super. Ct. July 22,
2005), SCR No. D4.
Petitioner was charged with criminal conspiracy to
commit murder, first-degree murder, and possession
of an instrument of a crime (PIC). (Crim. Docket at
5-6). On November 12, 2003, following a joint trial, a
jury convicted Petitioner and his co-defendant
McFadden of first-degree murder and criminal
conspiracy to commit murder. (Crim. Docket at 7-9;
N.T., Trial, 11/12/2003, at 5:8-7:5). Petitioner was
found not guilty on the PIC charge. (Id.). On January
9, 2004, Petitioner was sentenced to a term of life
imprisonment for the first-degree murder conviction,
with a concurrent sentence of 10 to 20 years’
imprisonment for the criminal conspiracy. (Crim.
Docket at 10-11).
Petitioner timely appealed his judgment of sentence.
(Notice of Appeal, SCR No. D2; see also Bishop,
No. 343 EDA 2004,{2019 U.S. Dist. LEXIS 5} slip op., SCR No. D4 (Pa. Super. Ct. July 22, 2005)).
Petitioner claimed: (1) the trial court erred by ■
excluding hearsay evidence; (2) the trial court
violated his rights under the Confrontation Clause;
(3) there was insufficient evidence to support his
convictions; and (4) the prosecutor committed

lyccases

misconduct in her closing argument. (Id. at 3). On
July 22, 2005, the Superior Court affirmed
Petitioner's judgment of sentence. (Id. at 6).
Petitioner did not file a petition for allowance of
appeal with the Pennsylvania Supreme Court. (See
Crim. Docket).
On July 21,2006, Petitioner filed a petition pursuant
to Pennsylvania's Post-Conviction Relief Act, 42
Pa.C.S. §§ 9541, etseq. (Crim. Docket at 14; Pet'r's
PCRA Pet., SCR No. D6). The PCRA Court
appointed counsel, who filed an Amended PCRA
Petition. (Crim. Docket at 14; Pet'r's Am. PCRA Pet.,
SCR No. D7). On October 22, 2007, the PCRA
Court granted the Amended PCRA Petition "limited
to the failure of counsel to file a petition for
allowance of appeal. [Petitioner] is permitted to file a
petition for allowance of appeal [nunc] pro tunc, but
must do so within 30 days." (Crim. Docket at 15). On
April 22, 2008, the Pennsylvania Supreme Court
denied the petition for allowance of appeal.
Commonwealth v. Bishop, No. 659 EAL 2007, 597
Pa. 703, 948 A.2d 802 (Pa. 2008) (Table).
On January 26, 2009, Petitioner filed a
subsequent{2019 U.S. Dist. LEXIS 6} pro se PCRA
Petition. (Crim. Docket at 15). PCRA Counsel was
appointed, who filed a Supplemental PCRA Petition.
(Id. at 17). After numerous continuances, the
Commonwealth filed a Motion to Dismiss the PCRA
Petition. (Id.; Mot. Dismiss PCRA Pet., SCR No.
D7A). On February 13, 2012, the PCRA Court
issued its Rule 907 Notice, reasoning that "[t]he
issues raised in your PCRA petition have no
arguable merit or have been previously litigated."
(Rule 907 Not., SCR No. D8; Crim. Docket at
18-19). Petitioner filed a pro se Response to the
Rule 907 Notice. (Pet'r's Resp. to Not., SCR No.
D10; Crim. Docket at 19). On March 14, 2012, the
PCRA Court dismissed the petition. (Order, SCR No.
D12; Crim. Docket at 20).
Petitioner appealed the PCRA Court's dismissal to
the Superior Court. (Crim. Docket at 20; Notice of
Appeal, SCR No. D13). On May 16, 2014, the
Superior Court affirmed the PCRA Court's dismissal,
concluding that "[Petitioner's] issues are patently
without merit, with no support in the record or from
other evidence, [thus], the PCRA court did not err in
dismissing [Petitioner's] petition without a hearing."
Commonwealth v. Bishop, No. 1205 EDA 2012,
2014 Pa. Super. Unpub. LEXIS 1216, 2014 WL
10920367, at *5 (Pa. Super. Ct. May 16, 2014).
On July 11, 2014, Petitioner filed another pro se
PCRA Petition.^ (Crim. Docket at 22; Pet'r's Third
PCRA Pet., SCR No. D20). Counsel entered her

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Croup. All rights reserved. Use of this product is subject to the restrictions and terms and
conditions of the Matthew Bender Master Agreement.

*>

appearance and filed an amended PCRA Petition on
January 26, 2015. (Crim. Docket at 22-23; Entry of
Appearance, SCR No. D21; Am. PCRA Pet., SCR
No.{2019 U.S. Dist. LEXIS 7} D23). On October 14,
2015, the PCRA Court issued its Rule 907 Notice
because the "petition was untimely filed and no
exception for the timeliness requirements apply."
(Rule 907 Not., SCR No. D25). The PCRA Court
dismissed the petition on November 16, 2015.
(Order, SCR No. D26). Petitioner appealed to the
Superior Court, (Notice of Appeal, SCR No. D27),
who affirmed the dismissal on November 15, 2016,
concluding the petition was untimely and that his
ineffectiveness claim was unavailing.
Commonwealth v. Bishop, 159 A.3d 586, 2016 WL
6778182, at *3 (Pa. Super. Ct. 2016).
On August 13,.2014, Petitioner filed the instant pro
se petition for habeas corpus, raising the following
seven claims for relief (recited verbatim):
(1) Petitioner was Denied his Due Process Right
to Present Evidence that the Commonwealth's
only witness Against him Lied at the Preliminary
Hearing.
(2) Petitioner was Denied his Sixth Amendment
Right to Confront the Commonwealth's Only
Witness against him When the Trial Court Erred
by Allowing his Preliminary Hearing Testimony
to be Introduced at Trial.
(3) Petitioner was Denied Due Process Because
the Commonwealth Presented Insufficient
Evidence to Support Conviction for First Degree
and Conspiracy.
(4) Petitioner was Denied his Right to Effective
Assistance of Counsel in Violation{2019 U.S.
Dist. LEXIS 8} of the Sixth and Fourteenth
Amendments of the United States Constitution
Where a Per Se Bruton Violation Occurred at his
trial When his Co-Defendant's confession was
Introduced Against his Co-Defendant and
Petitioner's Name was Mentioned and Trial
Counsel Failed to Object on the Grounds that a
Curative Instruction Could not Remedy the
Irreparable Harm to Petitioner's Right to
Cross-Examination Secured by the
Confrontation Clause.
(5) Petitioner was Denied his Right to Effective
Assistance of Counsel in Violation of the Sixth
and Fourteenth Amendments of the United
States Constitution where Trial Counsel Failed
to Request Curative Instruction and or a Mistrial
Where the Prosecutor's Remarks in Closing
Vouched for the State's Witnesses Credibility

1yccases

and Argued Evidence Not in the Record.
(6) Petitioner was Denied his Right to Effective
Assistance of Counsel in Violation of the Sixth
and Fourteenth Amendments of the United
States Constitution when Trial Counsel Failed to
Object to the Testimony of Officer Bunch as it
Violated Pennsylvania Rules of Criminal
Procedure 573, and Pennsylvania Rule of
Evidence 403.
(7) Petitioner was Denied Due Process and
Equal Protection When the State Post
Conviction Relief Act Procedures did not
Comport with Due Process in Bringing Forth his
Constitutional Claims.(Hab. Pet., ECF No. 1,
App'x A).4 The Honorable Juan R. Sanchez
referred this matter to me for a Report and
Recommendation. (Order,{2019 U.S. Dist.
LEXIS 9} ECF No. 2). On September 10, 2014,
Petitioner filed a Motion for Stay and Abeyance
to exhaust his claims raised in his Third PCRA
Petition filed on July 11,2014. (Mot. Stay &
Abeyance, ECF No. 4; see also Pet'r's Third
PCRA Pet., SCR No. D20). The stay was
granted for Petitioner to exhaust his claims
raised in this Third PCRA Petition in state court.
(Order, ECF No. 9).
After Petitioner's third PCRA proceedings resolved,
the stay was lifted. Bishop, 159 A.3d 586, 2016 WL
6778182; (Order, ECF No. 12). The Commonwealth
filed a Response to the Petition, and Petitioner filed
a Reply. (Resp., ECF No. 22; Pet'r’s Reply, ECF No.
26). This matter is now ripe for disposition.
II. LEGAL STANDARDS
A. Exhaustion and Procedural Default
The Antiterrorism and Effective Death Penalty Act of
1996 ("AEDPA") grants to persons in state or federal
custody the right to file a petition in a federal court
seeking the issuance of a writ of habeas corpus..
See 28 U.S.C. 8 2254. Pursuant to AEDPA:
An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the
judgment of a State court shall not be granted
unless it appears that(A) the applicant has exhausted the remedies
available in the courts of the State; or
(B)(i) there{2019 U.S. Dist. LEXIS 10) is an
absence of available State corrective process;
or (ii) circumstances exist that render such
process ineffective to protect the rights of
applicant.28 U.S.C. § 2254(b)(1). The

3

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions and terms and
conditions of the Matthew Bender Master Agreement.

s

exhaustion requirement is rooted in
considerations of comity, to ensure that state
courts have the initial opportunity to review
federal constitutional challenges to state
convictions. See Castille v. Peoples, 489 U.S.
346. 349, 109 S. Ct. 1056, 103 L. Ed. 2d 380
(1989); Rose v. Lundy, 455 U.S. 509, 518, 102
S. Ct. 1198, 71 L. Ed. 2d 379 (1982); Leyva v.
Williams, 504 F.3d 357. 365 (3d Cir. 2007);
Werts v. Vaughn, 228 F.3d 178. 192 (3d Cir.
2000).
Respect for the state court system requires that the
habeas petitioner demonstrate that the claims in
question have been "fairly presented to the state
courts." Castille, 489 U.S. at 351. To "fairly present"
a claim, a petition must present its "factual and legal
substance to the state courts in a manner that puts
them on notice that a federal claim is being
asserted." McCandless v. Vaughn, 172 F.3d 255.
261 (3d Cir. 1999); see also Nara v. Frank, 488 F.3d
187. 197-98 (3d Cir. 2007) (recognizing that a claim
is fairly presented when a petitioner presents the
same factual and legal basis to the state courts). A
state prisoner exhausted state remedies by giving
the "state courts one fully opportunity to resolve any
constitutional issues by invoking one complete round
of the State's established appellate review process."
O'Sullivan v. Boerckel, 526 U.S. 838. 845, 119 S. Ct.
1728, 144 L. Ed. 2d 1 (1999). In Pennsylvania, one
• complete round includes presenting the federal
claim through the Superior Court on direct or
collateral review. See Lambert v. Blackwell, 387
F,3d 210. 233-34 (3d Cir. 2004). The{2019 U.S.
Dist. LEXIS 11} habeas petition bears the burden of
proving exhaustion of all state remedies. Boyd v.
Waymart, 579 F.3d 330. 367 (2009).
If a habeas petition contains unexhausted claims,
the federal district court must ordinarily dismiss the
petition without prejudice so that the petitioner can
return to state court to exhaust his remedies.
Slutzker v. Johnson, 393 F.3d 373. 379 (3d Cir.
I 2004). However, if state law would clearly foreclose
review of the claims, the exhaustion requirement is
technically satisfied because there is an absence of
state corrective process. See Carpenter v. Vaughn,
296 F.3d 138. 146 (3d Cir. 2002); Lines v. Larkins,
208 F.3d 153. 160 (3d Cir. 2000). The failure to
properly present claims to the state court generally
results in a procedural default. Lines, 208 F.3d at
159-60. The doctrine of procedural default bars
federal habeas relief when a state court relies upon,
or would rely upon, "'a state law ground that is
independent of the federal question and adequate to
support the judgment"’ to foreclose review of the

lyccases

federal claim. Nolan v. Wynder, 363 F. App'x 868,
871 (3d Cir. 2010) (not precedential) (quoting Beard
v. Kindler, 558 U.S. 53, 53, 130 S. Ct. 612, 175 L.
Ed. 2d 417 (2009)); see also Taylor v. Horn, 504
F.3d 416, 427-28 (3d Cir. 2007) (citing Coleman v.
Thompson, 501 U.S. 722, 730, 111 S. Ct. 2546, 115
L. Ed. 2d 640 (1991)).
The requirements of "independence" and
"adequacy" are distinct. Johnson v. Pinchak, 392
F.3d 551,557-59 (3d Cir. 2004). State procedural
grounds are not independent, and will not bar
federal habeas relief, if the state law ground is so
"interwoven with federal law" that it cannot be said to
be independent of the merits of a petitioner's federal
claims. Coleman, 501 U.S. at 739-40. A state
rule{2019 U.S. Dist. LEXIS 12} is "adequate" for
procedural default purposes if it is "firmly established
and regularly followed." Johnson v. Lee,_U.S._,
136 S. Ct. 1802. 1804, 195 L. Ed. 2d 92 (2016) (per
curiam) (citation omitted). These requirements
ensure that "federal review is not barred unless a
habeas petitioner had fair notice of the need to
follow the state procedural rule," Bronshtein v. Horn,
404 F.3d 700. 707 (3d Cir. 2005), and that "review is
foreclosed by what may honestly be called 'rules'.. .
of general applicability^] rather than by whim or
prejudice against a claim or claimant." Id. at 708.
Like the exhaustion requirement, the doctrine of
procedural default is grounded in principles of comity
and federalism. As the Supreme Court has
explained:
In the absence of the independent and adequate
state ground doctrine in federal habeas, habeas
petitioners would be able to avoid the
exhaustion requirement by defaulting their
federal claims in state court. The independent
and adequate state ground doctrine ensures
that the States' interest in correcting their own
mistakes is respected in all federal habeas
cases .Edwards v. Carpenter, 529 U.S. 446.
452-53, 120 S. Ct. 1587, 146 L. Ed. 2d 518
(2000).
Federal habeas review is not available to a petitioner
whose constitutional claims have not been
addressed on the merits by the state courts due to
procedural default, unless such petitioner can
demonstrate: (1) cause for{2019 U.S. Dist. LEXIS
13} the default and actual prejudice as a result of the
alleged violation of federal law; or (2) that failure to
consider the claims will result in a fundamental
miscarriage of justice. Id. at 451; Coleman, 501 U.S.
at 750. To demonstrate cause and prejudice, the
petitioner must show some objective factor external

4

© 2021 Matthew Bender & Company. Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions and terms and
conditions of the Matthew Bender Master Agreement.

4

to the defense that impeded counsel's efforts to
comply with some state procedural rule. Slutzker,
393 F.3d at 381 (quoting Murray v. Carrier, All U.S.
478. 488, 106 S. Ct. 2639, 91 L. Ed. 2d 397 (1986)).
To demonstrate a fundamental miscarriage of
justice, a habeas petitioner must typically
demonstrate actual innocence. Schlup v. Delo, 513
U.S. 298. 324-26, 115 S. Ct. 851, 130 L. Ed. 2d 808
(1995).

component, the Supreme Court stressed that an
unreasonable application of federal law is different
from an incorrect application of such law and that a
federal habeas court may not grant relief unless that
court determines{2019 U.S. Dist. LEXIS 15} that a
state court's incorrect or erroneous application of
clearly established federal law was also
unreasonable." Werts, 228 F.3d at 196 (citation
omitted).

B. Merits Review

III. DISCUSSION

The AEDPA increased the deference federal courts
must give to the factual findings and legal
determinations of the state courts. Woodford v.
Visciotti, 537 U.S. 19. 24, 123 S. Ct. 357, 154 L. Ed.
2d 279 (2002); Werts, 228 F,3d at 196. Pursuant to
28 U.S.C. $ 2254(d). as amended by AEDPA, a
petition for habeas corpus may be granted only if:
(1) the state court's adjudication of the claim
resulted in a decision contrary to, or involved an
unreasonably application of, "clearly established
Federal law, as determined by the Supreme Court of
the United States;" or (2) the adjudication resulted in
a decision that was "based on an unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding." 28 U.S.C.
§_2254(d)(1)-(2). Factual issues determined by a
state court are presumed to be correct,{2019 U.S.
Dist. LEXIS 14}'and the petitioner bears the burden
of rebutting this presumption by clear and convincing
evidence. Werts, 228 F,3d at 196 (citing 28 U.S.C. §
2254(e)(1)).

Petitioner raises seven claims for relief. (Hab. Pet.,
ECF No. 1, at App'x A; Reply, ECF No. 26). I will
address each in turn. I conclude that Petitioner's
Grounds One, Four, Five, and Six are procedurally
defaulted. I also find that the Pennsylvania courts
reasonably rejected Petitioner's Ground Two and
Three. Lastly, I find that Petitioner's Ground Seven is
not cognizable on habeas review. Accordingly, as
fully explained below, I respectfully recommend that
the petition be denied.

' The Supreme Court has explained that, "[ujnder the
'contrary to’ clause, a federal habeas court may
grant the writ if the state court arrives at a
conclusion opposite to that reached by [the
Supreme] Court on a question of law or if the state
court decides a case differently than [the Supreme]
Court has on a set of materially indistinguishable
facts." Williams v. Taylor, 529 U.S. 362. 412-13, 120
S. Ct. 1495, 146 L. Ed. 2d 389 (2000); see also
Hameen v. State of Delaware, 212 F,3d 226. 235
(3d Cir. 2000). "Under the 'unreasonable application'
clause, a federal habeas court may grant the writ if
the state court identifies the correct legal principle
form [the Supreme] Court’s decisions but
unreasonably applies that principle to the facts of the
prisoner's case." Williams, 529 U.S. at 413. The
"unreasonable application" inquiry requires the
habeas court to "ask whether the state court's
application of clearly established federal law was
objectively unreasonable." Hameen, 212 F.3d at 235
(citing Williams, 529 U.S. at 388-89). "In further
delineating the 'unreasonable application'

lyccases

A. Ground One: Due Process Claim Regarding
Hearsay Evidence
Petitioner first contends that his due process rights
were violated because the trial court prohibited
hearsay evidence from his co-defendant
McFadden's parents about an alleged conversation
with an unavailable Commonwealth witness, Harry
Gadson. (Hab. Pet., ECF No. 1, at App'x A). Gadson
was the third individual in Petitioner's car with
Petitioner and McFadden at the time of the shooting.
(N.T., Trial, 11/06/03, at 61:19-88:7). He testified at
a preliminary hearing, but the Commonwealth could
not locate{2019 U.S. Dist. LEXIS 16} him for trial.
(Id.-, N.T., Trial, 11/05/03, at 120:19-135:2).
McFadden's parents would have testified that
"Gadson approached them several months after he
testified at the preliminary hearing and apologized to
them for testifying against their son, stating that the
police forced him to do so." Bishop, No. 343 EDA
2004, slip op. at 3-4, SCR No. D4. The trial court
precluded the evidence "because such testimony
would have been hearsay not subject to an
exception." (Trial Ct. Rule Op., at 8 n.7 (Phila. Cnty.
Com. PI. Mar. 11, 2004), SCR No. D3). Petitioner
asserts the trial court's decision to preclude the
hearsay evidence from his co-defendant's parents
violated his due process rights. (Hab. Pet., ECF No.
1, at App'x A).
The Commonwealth responds that Petitioner's
Ground One is unexhausted and procedurally
defaulted. (Resp., ECF No. 22, at 12-13). The
Commonwealth also argues that, even if Petitioner's

5

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNexis Group. All rights reserved. Use of this product is subject to the restrictions and terms and
conditions of the Matthew Bender Master Agreement.

*

claim were not defaulted, it would not warrant relief
because Petitioner has not shown any error by the
trial court in precluding the hearsay evidence. (Id. at
13-14).
As noted above, a petitioner must exhaust his
federal constitutional claims in state court before
raising them in a federal habeas petition. 28 U.S.C.
§_2254(b)(1); Castille, 489 U.S. at 349; Rose, 455
U.S. at 518.(2019 U.S. Dist. LEXIS 17} A state
prisoner exhausts state remedies by giving the
"state courts one full opportunity to resolve any
constitutional issues by invoking one complete round
of the State's established appellate review process,"
which in Pennsylvania includes through the Superior
Court. O'Sullivan, 526 U.S. at 845; Lambert, 387
F,3d at 233-34. The failure to properly present
claims to the state court generally results in a
procedural default. Lines, 208 F.3d at 165-66. A
federal court is precluded from reviewing the merits
of a procedurally defaulted claim if the state courts
would rely on an independent and adequate state
ground to foreclose review of the federal claim.
Beard, 558 U.S. at 53.
Petitioner's due process claim regarding the hearsay
evidence is unexhausted and procedurally defaulted.
I therefore respectfully recommend his request for
relief on this basis be denied. His claim is
unexhausted because he never presented it to the
state courts. He appealed his judgment of sentence.
(Notice of Appeal, SCR No. D2). He raised four
claims on appeal, but none asserted that his due
process rights were violated because of the trial
court's decision to exclude his co-defendant's
parent's hearsay testimony. (Bishop, No. 343 EDA
2004, slip op. at 3, SCR No. D4 (quoting Pet'r's
Appellant's Brief)). Because Petitioner{2019 U.S.
Dist. LEXIS 18} did not present his claim to the
state courts, it is unexhausted. See, e.g., O'Sullivan,
526 U.S. at 845; Einhorn v. Cameron, No. 15-2139,
2017 U.S. Dist. LEXIS 115016, 2017 WL 7052177,
at *9 (E.D. Pa. July 20, 2017) ("[Petitioner] did not
present this claim to the state courts and
consequently, it is unexhausted.").
Petitioner's claim is procedurally defaulted because
he would now be precluded by Pennsylvania's
waiver rule, 42 Pa.C.S. § 9544(b),® from exhausting
his claim. The waiver rule codified at § 9544(b) is an
independent and adequate state rule which bars
federal habeas review. See, e.g., Williams v.
DelBaso, No. 18-2452, 2018 U.S. Dist. LEXIS
176780, 2018 WL 7683672, at *10 (E.D. Pa. Oct. 12,
2018) ("The Third Circuit has found the waiver rule
in § 9544(b) to be an independent and adequate

1yccases

state ground for the purposes of the procedural
default doctrine." (citing Patton v. Sup't Graterford
SCI, 2017 U.S. Add. LEXIS 23928. 2017 WL
5624266, at *1 (3d Cir. 2017) ("[T]he state court's
reliance on 42 Pa. Cons. Stat. § 9544(b) provides an
independent and adequate ground to support the
judgment."))); Reeve v. Luther, No. 17-4220, 2018
U.S. Dist. LEXIS 82577. 2018 WL 3750973, at *4
(E.D. Pa. May 15, 2018) ("Waiver under § 9544(b)
has been found to constitute an independent and
adequate procedural ground which bars federal
habeas review." (citing Williams v. Sauers, No.
12-102, 2014 U.S. Dist. LEXIS 182386, 2015 WL
787275, at *14 (E.D. Pa. Feb. 25, 2015), Holloway v.
Horn, 161 F. Sudd. 2d 452. 476 (E.D. Pa. 2001)));
Ferguson v. Cameron, No. 14-3257, 2017 U.S. Dist.
LEXIS 64892. 2017 WL 2273183, at *4 (E.D. Pa.
Apr. 27, 2017), report and recommendation
approved, No. 14-3257, 2017 U.S. Dist. LEXIS
79426. 2017 WL 2264676 (E.D. Pa. May 24, 2017)
(due process claim defaulted under 42 Pa. Cons.
Stat. § 9544(b) when it was available, but not
presented, on direct review).®
Because Petitioner's claim is procedurally defaulted,
the Court may not review the merits unless
Petitioner has established cause and prejudice,.or a
fundamental miscarriage of justice, to excuse
the{2019 U.S. Dist. LEXIS 19} procedural default.
Edwards, 529 U.S. at 451; Coleman, 501 U.S. at
750. Petitioner does not argue either exception, thus
he has failed to make the requisite showing7 I
conclude that Petitioner has not demonstrated an
exception to excuse the procedural default on his
Ground One, and I respectfully recommend his
request for relief on this basis be denied.
B. Ground Two: Confrontation Clause Claim
Regarding Gadson Testimony
Petitioner next argues his rights under the Sixth
Amendment's Confrontation Clause were violated.
(Hab. Pet., ECF No. 1, at App’x A). Specifically, he
contends Gadson's "preliminary hearing testimony
was allowed to be read into the record at trial in
violation of Petitioner's right to confrontation. The
State never displayed a good faith effort in
attempting to secure Mr. Gadson's presence at trial."
(Id.). The Commonwealth responds that the
Pennsylvania courts "reasonably rejected this claim
as meritless." (Resp., ECF No. 22, at 14-15).
The Sixth Amendment's Confrontation Clause
provides that a defendant shall be "confronted with
the witnesses against him." U.S. Const, amend. VI.
The Confrontation Clause prevents the "admission

6

© 2021 Matthew Bender & Company. Inc., a member of the LcxisNcxis Group. All rights reserved. Use of this product is subject to the restrictions and terms and
conditions of the Matthew Bender Master Agreement.

*

of testimonial statements of a witness who did not
appear at trial unless he was unavailable to testify,
and the defendant had had a prior opportunity for
cross-examination." Davis v. Washington, 547 U.S.
813 821 126 S. Ct. 2266. 165 L. Ed. 2d 224 (2006)
(quoting Crawford v, Washington, 541 U.S. 36,
53-54, 124 S. Ct. 1354, 158 L. Ed. 2d 177 (2004)).
The Pennsylvania{2019 U.S. Dist. LEXIS 20} state
court provided the following summary of Gadson's
unavailability hearing and adjudication of Petitioner's
Confrontation Clause claim:
The prosecution requested an unavailability
hearing, outside of the jury’s presence, to
establish the considerable efforts made to locate
Mr. Gadson for trial. The Commonwealth called
three witnesses, each testifying that they had
made substantial efforts to locate Mr. Gadson.
At the unavailability hearing, Detective Pirrone
testified that he had been attempting to locate
Mr. Gadson for over a month, but was unable to
do so. He explained that he had spoken with Mr.
Gadson on the telephone and Mr. Gadson said
he was living in Norristown. Detective Pirrone
was able to speak with Faith Norris, the
grandmother of Cierra Hernandez, Mr. Gadson's
girlfriend. She explained that she threw Cierra
out of her house several months ago and had
not seen her or Mr. Gadson since.
Detective Pirrone also spoke with the Norristown
Police, but they were unable to help him locate
Mr. Gadson. Bidia Hayman, [Petitioner's] sister,
also told Detective Pirrone she had not seen him
in some time. On November 3, 2003, Detective
Pirrone spoke on the telephone with Mr.
Gadson. At that time, Mr. Gadson{2019 U.S.
Dist. LEXIS 21} agreed that he would give
Detective Pirrone an address where he could
pick him up for the trial, but Mr. Gadson never
called back with the information.
Detective Centeno and Officer Abadie also
testified at the unavailability hearing that they
tried to locate Mr. Gadson for the trial. Detective
Centeno explained that on November 5, 2003,
he went to 11 different motels in Northeast.
Philadelphia looking for Mr. Gadson, but was
unable to find him. Officer Abadie explained that
on November 5, 2003, he went to the Days Inn
on Roosevelt Boulevard in Northeast
Philadelphia. Officer Abadie spoke with the
general manager and cleaning people at the
Days Inn who said they had seen Mr. Gadson,
but that Mr. Gadson left the hotel before Officer

1yccases

Abadie arrived. This credible evidence supports
the Court's determination that Mr. Gadson was
unavailable for trial.
Further, this Court's determination of Mr.
Gadson's unavailability and that his earlier
testimony could be admitted was proper
pursuant to Commonwealth v. Bazemore, 531
Pa. 582, 614 A.2d 684 ([Pa.] 1992).
"[I]t is well established that an unavailable
witness' prior recorded testimony from a
preliminary hearing is admissible at trial and will
not offend the right of confrontation, provided the
defendant had{2019 U.S. Dist. LEXIS 22}
counsel and a full opportunity to cross-examine'
that witness at the prior proceeding."/d. at 585,
586.
Here, permitting Mr. Gadson's testimony from
the preliminary hearing to be read was proper
because (1) Mr. Gadson was under oath when
he testified about Mr. Davis' murder and (2) both
defendants were represented by counsel who
each had a full and fair opportunity to
cross-examine Mr. Gadson at the preliminary
hearing. Therefore, it was well within this Court's
discretion to allow the Commonwealth to have
Mr. Gadson's preliminary hearing testimony read
to the jury.(6/'shop, Trial Ct. Op. at 8-10 (Phila.
Cnty. Com. PI. Mar. 11, 2004), SCR No. D3)
(internal citations and footnote omitted). 8
I find no error with the state court's adjudication of
Petitioner's Confrontation Clause claim, and I thus
respectfully recommend relief on this basis be
denied. The Pennsylvania court's adjudication was
neither contrary to, nor an unreasonable application
of, clearly established federal law. 28 U.S.C. §
2254(d). The Sixth Amendment's Confrontation
Clause prohibits "the introduction of testimonial
statements by a non-testifying witness, unless the
witness is 'unavailable to testify, and the defendant
had had a prior opportunity for cross-examination.'"
Ohio v. Clark, 135 S. Ct. 2173. 2179, 192 L. Ed. 2d
306 (2015) (quoting Crawford, 541 U.S. at 54). Here,
as the state courts{2019 U.S. Dist. LEXIS 23}
found, Gadson was unavailable to testify, and
Petitioner had an opportunity to cross-examine
Gadson at the preliminary hearing. Thus, his prior
testimony was permissibly read into the record. The
Pennsylvania courts' adjudication of Petitioner's
claim falls squarely within clearly established federal
law, and I recommend relief on this basis be denied.
See, e.g., Kelly v.'Wenerowicz, No. 13-4317, 2015
U.S. Dist. LEXIS 170259, 2015 WL 11618244, at
*11 (E.D. Pa. Dec. 18, 2015), report and

7

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNexis Group. All rights reserved. Use of this product is subject to the restrictions and terms and
conditions of the Matthew Bender Master Agreement.

•

recommendation adopted, No. 13-4317, 2016 U.S.
Dist. LEXIS 108162, 2016 WL 4386083 (E.D. Pa.
Aug. 15, 2016) ("Tjhe Supreme Court in Crawford
accepted the notion that prior testimony subjected to
cross-examination at a preliminary hearing 'provides
substantial compliance with the purposes behind the
confrontation requirement[.]'"); see also Richardson
. v. Kerestes, No. 15-4687, 2017 U.S. Dist. LEXIS
84972, 2017 WL 6626731, at *11 -12 (E.D. Pa. May
31,2017) (finding state court reasonably denied
Confrontation Clause claim regarding preliminary
hearing testimony where individual was unavailable
and petitioner had opportunity to cross-examine);
Saget v. Bickell, No. 12-2047, 2014 U.S. Dist. LEXIS
142348, 2014 WL 4992572, at *18 (E.D. Pa. Oct. 6,
2014) (collecting cases and noting "[ajround the
country, courts exercising habeas review under
Crawford have permitted admission of preliminary
hearing testimony of a witness unavailable to testify
at trial if there was an adequate opportunity to
cross-examination during that proceeding”).
C. Ground Three: Sufficiency of the Evidence
Claim
Petitioner next contends his due process rights were
violated{2019 U.S. Dist. LEXIS 24} because the
Commonwealth presented insufficient evidence to
sustain his convictions. (Hab. Pet., ECF No. 1, at
App'x A). The Commonwealth responds that the
Pennsylvania courts reasonably rejected this claim
because the evidence "was more than sufficient to
support the jury's verdict." (Resp., ECF No. 22 at

17).
The established federal law governing this claim was
determined in Jackson v. Virginia, 443 U.S. 307. 99
S. Ct. 2781.61 L. Ed. 2d 560 (1979). When a
habeas petitioner challenges the sufficiency of
evidence underlying a conviction, "the relevant
question is whether, after viewing the evidence in
the light most favorable to the prosecution, any
rational trier of fact could have found the essential
elements of the crime beyond a reasonable doubt."
Jackson, 443 U.S. at 319 (emphasis in original). The
habeas court must examine the evidence "with
reference to 'the substantive elements of the
criminal offense as defined by state law."' Eley v.
Erickson, 712 F.3d 837. 848 (3d Cir. 2013) (quoting
Jackson, 443 U.S. at 324). However, "the minimum
amount of evidence that the Due Process Clause
requires to prove the offense is purely a matter of
federal law." Coleman v. Johnson, 566 U.S. 650,
651, 132 S. Ct. 2060. 182 L. Ed. 2d 978 (2012V A
reviewing court may not substitute its judgment for
that of the jury. Jackson, 443 U.S. at 318-19. The

lyccases

court must defer to the jury's findings regarding
witness credibility, resolving conflicts of evidence,
and drawing reasonable inferences{2019 U.S. Dist.
LEXIS 25} from the evidence. Id. at 319. If, upon
review of the evidence, the court finds that "no
rational trier of fact could have found proof of guilt
beyond a reasonable doubt," then habeas relief is
appropriate. Id. at 324.
The Pennsylvania courts applied the following
standard in addressing Petitioner's claim:
In reviewing the sufficiency of the evidence, this
Court must determine whether all evidence and
reasonable inferences deducible therefrom,
viewed in the light most favorable to the
Commonwealth as verdict winner, were
sufficient to establish all elements of a crime
beyond a reasonable doubt. Circumstantial
evidence can itself be sufficient to prove any
element, or all the elements of a crime.(Bishop,
Trial Ct. Op. at 5 (Phila. Cnty. Com. PI. Mar. 11,
2004), SCR No. D3) (citing Commonwealth v.
Hagan, 539 Pa. 609, 654 A.2d 541,543 (Pa.
1995)). The Third Circuit has explained that the
Pennsylvania sufficiency of the evidence
standard is consistent with the federal standard
in Jackson. See Eley, 712 F.3d at 848.
Therefore, the state court did not apply a
standard "contrary to" clearly established federal
law. 28 U.S.C. §2254(dim. Accordingly,
habeas relief is appropriate only if Petitioner
demonstrates the state court's decision was
based on an unreasonable application of
Jackson or involved an unreasonable{2019 U.S.
Dist. LEXIS 26} determination of the facts. Id. §
2254(d)(1 )-(2).
The state court provided the following adjudication of
Petitioner's sufficiency claim:
In the case at bar, the evidence admitted at trial
was clearly sufficient to support a verdict of
murder, in the first degree. To obtain a conviction
for first degree murder, the Commonwealth must
prove beyond a reasonable doubt that the
defendant acted with a specific intent to kill, that
a human being was unlawfully killed, that the
defendant did the killing and that the killing was
done with deliberation. The Pennsylvania
Supreme Court has held that the use of a deadly
weapon on a vital part of the body sufficiently
establishes a specific intent to kill.
The evidence here shows that this was an
intentional and planned murder. The post
mortem medical exam established that the

8

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions and terms and
conditions of the Matthew Bender Master Agreement.

*'

decedent was shot several times in the face,
neck and chest. The testimony established that
it was, in fact, defendant McFadden who shot
and killed the decedent and [Petitioner] who
drove the car to locate and follow Mr. Davis.
There was testimony indicating that defendant
McFadden had been paid to kill Mr. Davis, thus
showing McFadden's intention to do so. Further,
the testimony indicated that{2019 U.S. Dist.
LEXIS 27} defendant McFadden expressed his
desire to kill Mr. Davis shortly before shooting
him, and [Petitioner], after hearing this,
continued driving defendant McFadden around
to find, and eventually shoot Mr. Davis. This
evidence shows that the defendants intended to
kill Mr. Davis.

McFadden around looking for the decedent Davis,
knowing that McFadden intended to kill Davis. (N.T.,
Trial, 11/06/03, at 63:9-64:22, 65:5-16). Upon seeing
Davis, McFadden instructed Petitioner to follow him,
which Petitioner did for multiple blocks. (Id. at
66:6-20, 67:5-11). Once Davis parked his car,
McFadden told Petitioner to park up the street, and
McFadden exited the car. (Id. at 67:12-18). After
McFadden exited the car, Petitioner informed
Gadson that McFadden was going to murder Davis.
(Id. at 71:9-17). Multiple{2019 U.S. Dist. LEXIS 29}
shots were fired, McFadden returned to Petitioner's
car, and showed his empty gun. (Id. at 67:19-69:6).
Petitioner drove away and continued driving with
McFadden and Gadson for approximately fifteen
minutes after the shooting. (Id. at 69:7-21).

In the case at bar, the evidence admitted at trial
was also sufficient to support a conviction of
criminal conspiracy. The record, as stated
above, indicates that the defendants actively
participated in criminal conduct together. "The
least degree of concert of collusion is sufficient
to sustain a finding of responsibility as an
accomplice."

In light of this evidence presented at trial, a rational
trier of fact could find that Petitioner knew McFadden
intended to murder Davis and agreed to facilitate the
murder by driving, locating, and following Davis. The
state court reasonably concluded that sufficient
evidence was presented to support each element of
the crimes. Because Petitioner has not
demonstrated the state court unreasonably applied
Jackson or unreasonably determined the facts, I
respectfully recommend his request for relief on this
basis be denied. 28 U.S.C. 8 2254(d1(1 )-(2).

Officer Yolanda Bunch, an officer assigned to
the 4th District of Philadelphia for ten years,
testified that she was very familiar with the
community where defendants McFadden and
[Petitioner] lived and that, she had seen the two
defendants together in the past. The testimony
was that [Petitioner] drove defendant McFadden
pursuing Mr. Davis and that [Petitioner] was well
aware that defendant McFadden got out of the
car with the stated intention to kill Mr. Davis.
Further, [Petitioner] drove defendant McFadden
away from the scene of the crime. This evidence
indicates that the{2019 U.S. Dist. LEXIS 28}
defendants acted in concert and that both
actively participated in killing the
decedent.(B/shop, Trial Ct. Op. at 5-8 (Phila.
Cnty. Com. PI. Mar. 11,2004), SCR No. D3)
(internal citations omitted).
The state court's decision reasonably applied
Jackson and did not involve an unreasonable
determination of the facts. I respectfully recommend
Petitioner’s request for relief on this basis be denied.
28 U.S.C. § 2254(d). The state court reasonably
determined that the Commonwealth presented
sufficient evidence at trial to sustain the convictions
for first degree murder, 18 Pa.C.S. § 2502;^ and
criminal conspiracy, 18 Pa.C.S. § 903.^ The
evidence presented at trial showed that, on the night
in question, Petitioner drove co-defendant

lyccases

D. Grounds Four, Five, and Six: Ineffective
Assistance of Counsel Claims
In Petitioner's Grounds Four, Five, and Six, he
contends his counsel was ineffective for failing to
object to, and request mistrials following, the
introduction of various pieces of evidence at trial.
(Hab. Pet., ECF No. 1, at App'x A). The
Commonwealth responds that Petitioner's
ineffectiveness claims are procedurally defaulted
and meritless. (Resp.,{2019 U.S. Dist. LEXIS 30}
ECF No. 22, at 17-22). I conclude Petitioner's
ineffectiveness claims are procedurally defaulted.
He asserts the procedural default is excused due to
PCRA counsel's ineffectiveness under Martinez v.
Ryan, 566 U.S. 1, 132 S. Ct. 1309, 182 L. Ed. 2d
272 (2012). I find that Petitioner has not shown the
procedural default is excused on his Grounds Four,
Five, and Six under Martinez. Therefore, I
respectfully recommend his request for relief on
these grounds be denied.
Petitioner's Grounds Four, Five, and Six are
unexhausted because Petitioner never presented
these ineffectiveness claims to the state courts. .
O'Sullivan, 526 U.S. at 845; Lambert, 387 F.3d at
233-34. The claims are now procedurally defaulted
because Petitioner would be barred by

9

© 2021 Matthew Bender & Company. Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions and terms and
conditions of the Matthew Bender Master Agreement.

#

Pennsylvania's waiver rule and the one-year PCRA
statute of limitations from filing a PCRA petition and
exhausting the claims in state-court. 42 Pa.C.S. §
9544(b); 42 Pa.C.S. § 9545(b). Pennsylvania's
waiver rule and the PCRA statute of limitations are
independent and adequate state ground precluding
federal habeas relief, see, e.g., Whitney, 280 F.3d at
251; Williams, 2018 U.S. Dist. LEXIS 176780, 2018
WL 7683672, at *10, unless Petitioner can establish
an exception to excuse the procedural default.
Petitioner argues cause and prejudice to excuse the
procedural default under Martinez v. Ryan, 566 U.S.
1, 132 S. Ct. 1309, 182 L. Ed. 2d 272 (2012). He
contends "[c]laims four (4), five (5), six (6). . . were
not presented to the state court due to post
conviction relief{2019 U.S. Dist. LEXIS 31} act
counsel's ineffectiveness.” (Hab. Pet., ECF No. 1, at
App'x A; see also Reply, ECF No. 26, at 7-23). I
' address each in turn and conclude Petitioner has
failed to show the procedural default on Grounds
Four, Five, and Six is excused under Martinez.
Accordingly, I respectfully recommend his request
for relief on these grounds be denied.
Martinez recognized a "narrow exception” to the
general rule that attorney errors in collateral
proceedings do'not establish cause to excuse a
procedural default, holding, "[inadequate assistance
of counsel at initial-review collateral proceedings
may establish cause for a prisoner's procedural
default of a claim of ineffective assistance at trial."
566 U.S. at 9. To successfully invoke the Martinez
exception, a petitioner must satisfy two factors: that
the underlying, otherwise defaulted, claim of
ineffective assistance of trial counsel is "substantial,"
meaning that it has "some merit," id. at 14; and that
petitioner had "no counsel" or "ineffective" counsel
during the initial phase of the state collateral review
proceeding. Id. at 17; see also Glenn v. Wynder, 743
F.3d 402. 410 (3d Cir. 2014).
1. Ground Four's Procedural Default is not
Excused under Martinez
The procedural default on Petitioner's Ground Four
is not excused under{2019 U.S. Dist. LEXIS 32}
Martinez because the underlying, procedurally
defaulted, ineffectiveness claim is not "substantial."
In Ground Four, Petitioner argues his trial counsel
was ineffective for failing to object and request a
mistrial during the testimony of Rahjai Black due'to
an alleged violation of Bruton v. United States, 391
U.S. 123. 88 S. Ct. 1620, 20 L. Ed. 2d 476 (1968). 11
(Hab. Pet., ECF No. 1, App'x A). Black testified that
McFadden bragged to him about killing Davis. (N.T.,
Trial, 11/04/03, at 161:2-163-14). Before Black

lyccases

testified, counsel and the trial court discussed
limiting Black's testimony in accordance with Bruton.
Specifically, Black's testimony was limited to what
McFadden told Black about McFadden-he was not
to mention McFadden's statements regarding
Petitioner's involvement. (Id. at 10:2-11:12). On
direct testimony, Black once referenced Petitioner:
Q: Once Mr. McFadden saw the white car, what,
if anything, did Mr. McFadden do? What did he
tell you he did once he saw the car with Mr.
Davis?
A: Fie didn't do nothing. [Petitioner] drove.
[Petitioner's Counsel]: Objection, Judge.
Sidebar.
[Sidebar conference:]
[Petitioner's Counsel]: I would ask for a mistrial,
Judge. Fie already said what happened. The guy
told him he killed him. Now what did you see
when you saw him{2019 U.S. Dist. LEXIS 33} in
a car? There is no reason for him to be asked
any questions about that, Judge.
The Court: I thought you had cautioned him on
that about [Petitioner], Ms. Ruiz?
Ms. Ruiz: I did tell him that. Fie is not a lawyer,
Judge. The point of the matter is, Judge, you tell
a witness not to say something, they take that
literally. He didn't follow him meaning because
he wasn't driving. So all I ask is that you give a
curative instruction.
The Court: There will be other evidence, at least
in Gadson's testimony, that [Petitioner] was
driving?
Ms. Ruiz: Absolutely.
The Court: I will certainly caution the jury at this
point. I will not grant a mistrial because there will
be other testimony about that.

[Sidebar concludes:]
The Court: Jurors, I want to caution you, what
Mr. Black testifies what Mr. McFadden told him
about himself, Mr. McFadden, you can take as
evidence; however, anything that Mr. Black says
that Mr. McFadden told him about anybody else,
including [Petitioner], is not evidence in this
case.
It is strictly hearsay and is to be disregarded by
you. There is no evidence as to [Petitioner] at
this point from this witness at all. Keep that in

10

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions and terms and
conditions of the Matthew Bender Master Agreement.

«
*

mind.
Mr. Black's testimony is only relevant to
Mr.{2019 U.S. Dist. LEXIS 34} McFadden. It is
not relevant in any way, shape or form to
[Petitioner], It has nothing to do with
[Petitioner.](N.T„ Trial, 11/04/03, at
172:17-175:24).
I conclude Petitioner's procedurally defaulted
Ground Four asserting ineffectiveness for failure to
object and request a mistrial is not "substantial"
under Martinez. Petitioner's counsel did object and
did request a mistrial. (Id.). Petitioner has not
demonstrated how trial counsel was ineffective for
failing to do something that counsel did, in fact, do.
E.g., Swainson v. Varner, No. 99-6480, 2002 U.S.
Dist. LEXIS 2694. 2002 WL 241024, at *11 (E.D. Pa.
Feb. 19, 2002) ("[Bjecause counsel did in fact object
to the alleged hearsay statements, Petitioner cannot
claim his counsel was ineffective for failing to do
something which in fact he did do."). Accordingly, I
conclude that Petitioner's underlying Ground Four is
not "substantial" under Martinez, and the procedural
default is not excused. Therefore, I respectfully
recommend his request for relief on this basis be
denied. Harrison v. Wenerowicz, No. 14-2114, 2017
U.S. Dist. LEXIS 126200, 2017 WL 8794941, at *14
(E.D. Pa. Aug. 8, 2017) (concluding procedurally
defaulted ineffectiveness claim for alleged failure to
object not "substantial" under Martinez because
"trial counsel did object and did move for a
mistrial."), report and recommendation approved
2018 U.S. Dist. LEXIS 63420. 2018 WL 1794535
(E.D. Pa. Apr. 16, 2018) (appeal docketed).
2. Ground Five's Procedural{2019 U.S. Dist.
LEXIS 35} Default is not Excused under Martinez
Petitioner's procedurally defaulted ineffectiveness
claim raised in Ground Five is not "substantial"
within Martinez, thus the procedural default is not
excused. In Ground Five, Petitioner contends his
trial counsel was ineffective for deficient
performance during the prosecutor's closing
remarks. (Hab. Pet., ECF No. 1, App'x A). Petitioner
contends that the prosecutor "vouched for the state's
witnesses credibility and argued evidence not in the
record" during closing arguments. (Id.)
(Capitalizations omitted). He recognizes that
"[c]ounsel objected" but argues that counsel was
ineffective for "failing] to request any remedial
measure to dispel this assurance that the witnesses
were truthful." (Id.).
Petitioner's underlying procedurally defaulted
ineffectiveness claim is not "substantial" because

1yccases

counsel's performance did not fall below an
"objective standard of reasonableness." See Preston
v. Superintendent Graterford SCI, 902 F.3d 365. 377
(3d Cir. 2018) ("In considering whether [petitioner's]
claim is substantial, we are guided by the two-part
Strickland analysis"); Strickland v. Washington, 466
U.S. 668. 688, 104 S. Ct. 2052, 80 L. Ed. 2d 674
(1984) (stating "the defendant must show that
counsel's representation fell below an objective
standard of reasonableness."). As Petitioner
recognizes, counsel{2019 U.S. Dist. LEXIS 36}
objected to the prosecutor's remarks. (N.T., Trial,
11/10/03, at 55:18-56:2, 56:25-58:12). The trial
judge sustained each objection, and instructed the
jury "[t]here is no evidence of that." (Id. at
55:25-56:2, 57:4-19, 58:12). Counsel did not perform
deficiently in this regard.12 See, e.g., Lister v. .
Mooney, No. 14-1915, 2017 U.S. Dist. LEXIS
163651,2017 WL 5180829, at *4 (M.D. Pa. Oct. 2,
2017) (concluding that petitioner "has hot
established that his trial counsel's performance fell
below an objective standard of reasonableness. As
evinced by the record itself, trial counsel did object
to the prosecutor's comment.”). Because counsel did
not perform unreasonably, Petitioner's Ground Five
claim is not "substantial" within the meaning of
Martinez. Accordingly, I respectfully recommend
relief on this basis be denied.
3. Ground Six's Procedural Default is not
Excused under Martinez
The procedural default on Petitioner's Ground Six is
not excused under Martinez because his underlying
claim is not "substantial." He argues counsel was
ineffective "when trial counsel failed to object to the
testimony of Officer Bunch as it violated
Pennsylvania Rules of Criminal Procedure 573, and
Pennsylvania Rule of Evidence 403." (Hab. Pet.,
ECF No. 1, App’xA).
Officer Bunch testified at trial in two respects. (N.T.,
Trial, 11/05/03, at{2019 U.S. Dist. LEXIS 37}
75:4-87:11). She first testified that she worked a
case involving the shooting of Amir Hutchings, the
son of Omar Hutchings. (Id. at 76:6-77:9, 78:2-18).
McFadden claimed Omar Hutchings paid him
$10,000 to kill Davis. (N.T., Trial, 11/04/03, at
162:9-163:6; N.T., Trial, 11/06/03, at 71:3-17).
Officer Bunch also testified that, in the ten years she
worked in Philadelphia's 4th Police District, she had
observed Petitioner and McFadden together "[e]very
so often," and had observed Petitioner, McFadden,
and Omar Hutchings together. (N.T., Trial, 11/05/03,
at 77:10-78:7).
Before Officer Bunch's testimony, Petitioner's

11

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions and terms and
conditions of the Matthew Bender Master Agreement.

*

counsel requested an offer of proof and contended
Officer Bunch's testimony should prohibited because
of its prejudicial value. (Id. at 70:17-73:25). He
argued:
First of all, the connotation this woman knows
them is that she knows them because she got
her eye on them, I guess, for some criminal
activity. That prejudice certainly overrides any
value that they know each other.
It has already been on the record that they know
each other. The first guy who testified said they
know each other. To have a police officer say I
ride around, I always see them, it is like she is
watching{2019 U.S. Dist. LEXIS 38} them. I
don't think it is necessary. I think it is too highly
prejudicial.(Id. at 71:24-72:12). The trial court
disagreed, and permitted Officer Bunch's
testimony. (Id. at 73:17-18; see also id.
75:4-87:6).
The procedural default on Petitioner's Ground Six is
not a "substantial" claim of ineffectiveness. Thus, the
procedural default is not excused under Martinez.
Petitioner argues "trial counsel failed to object on the
proper grounds," but, does not indicate what those
proper grounds are. (Hab. Pet., ECF No. 1, App'x A).
Further, as the trial record shows, Petitioner's
counsel contested Officer Bunch's testimony and
argued it should be barred as prejudicial. (Id.). "It is
not ineffective assistance of counsel if counsel did
raise the objection but it is overruled by the court.”
United States v. Brown, 2003 U.S. Dist. LEXIS 1928,
2003 WL 277256, at *4 (D. Del. 2003) (citing
Strickland, 466 U.S. at 676-77). Petitioner has not
shown his Ground Six-ineffectiveness for failure to
object to Officer Bunch's testimony-is "substantial"
because counsel in fact objected to the
complained-of testimony.13 See, e.g., Harteyv.
Vaughn, 186 F.3d 367. 373-74 (3d Cir. 1999)
(concluding counsel was not ineffective for alleged
failure to object because "the trial transcript shows
that [petitioner's] counsel did object.”); Wyatt v.
Diguglielmo, No. 04-148, 2005 U.S. Dist. LEXIS
8581.2005 WL 1114350, at *7 n.14 (E.D. Pa. May
10, 2005) (discussing argument that counsel was
ineffective{2019 U.S. Dist. LEXIS 39} for failing to
object to admission of evidence and concluding "trial
counsel was not ineffective, because he did object to
the letter's admission.").
Accordingly, I conclude the procedural default on
Ground Six is not excused under Martinez, and
respectfully recommend relief on this basis be
denied.

lyccases

E. Ground Seven: PCRA Counsel's
Ineffectiveness
In his last claim, Petitioner contends his due process
and equal protection rights were violated because of
his PCRA counsel's alleged ineffective
representation. (Hab. Pet., EOF No. 1, App'x A). The
Commonwealth responds that this claim is
procedurally defaulted because it was never
presented in the state courts, and further contends
that the claim is noncognizable on habeas review.
(Resp., ECF No. 22, at 23-24).
To the extent Petitioner raises a freestanding claim
of PCRA counsel's ineffectiveness, I respectfully
recommend relief on that basis be denied.The
habeas statute specifically provides that "the
ineffectiveness or incompetence of counsel during
Federal or State collateral post-conviction
proceedings shall not be a ground for relief in a
proceeding arising under section 2254." 28 U.S.C. §
2254(i). Accordingly, claims of PCRA counsel
ineffectiveness are not cognizable{2019 U.S. Dist.
LEXIS 40} on federal habeas review. See Martel v.
Clair, 565 U.S. 648, 662 n.3, 132 S. Ct. 1276, 182 L.
Ed. 2d 135 (2012) ("[Mjost naturally read, § 2254(i)
prohibits a court from granting substantive habeas
relief on the basis of lawyer's ineffectiveness in
post-conviction proceedings . ..."); Jordan v.
Superintendent Somerset SCI, No. 16-4091,2017
U.S. Add. LEXIS 27045. 2017 WL 5564555, at *1
(3d Cir. Feb. 15, 2017) ("[Cjlaims alleging ineffective
assistance of PCRA counsel are non-cognizable in
federal habeas, 28 U.S.C. § 2254(iL"L
IV. CONCLUSION
For the foregoing reasons, I respectfully recommend
that the petition for writ of habeas corpus be denied.
I conclude that Petitioner's Grounds One, Four, Five,
and Six are procedurally defaulted. I also conclude
that the state court reasonably rejected Petitioner's
Ground Two and Three. Lastly, I conclude that
Petitioner's Ground Seven is not cognizable on
habeas review.
Therefore, I respectfully make the following:
RECOMMENDATION
AND NOW this 5th day of June, 2019, it is
respectfully RECOMMENDED that the petition for
writ of habeas corpus be DENIED without an
evidentiary hearing and without the issuance of a
certificate of appealability.
Petitioner may file objections to this Report and
Recommendation. See Local Civ. Rule 72.1. Failure

12

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions and terms and
conditions of the Matthew Bender Master Agreement.

a
{

'*

to file timely objections may constitute a waiver of
any appellate rights.
BY THE COURT:
Isl Lynne A. Sitarski
LYNNE A. SITARSKI
UNITED STATES MAGISTRATE{2019 U.S. Dist.
LEXIS 41} JUDGE

UNITED STATES DISTRICT COURT OF THE THIRD CIRCUIT / 2019 / 2019 U.S. Dist.
LEXIS 95986::Bishop v. Luther::June 5, 2019 / Footnotes

Footnotes

1 Rule 2(a) of the Rules Governing Section 2254
cases requires that "if the petitioner is currently in
custody under a state-court judgment, the petition
must name as respondent the state officer who has
custody." Petitioner named "Jon Fisher” as
Respondent, the Superintendent of SCI Smithfield at
the time he filed the petition. Since that time,
Superintendent Jamey Luther has taken over as
Superintendent of SCI Smithfield. As Petitioner is
proceeding pro se, I will construe his petition liberally
and direct the Clerk of Court to revise the caption
with Jamey Luther, Superintendent, SCI Smithfield.
• ■

2

Respondents have submitted the state court record
("SCR") in hard-copy format. Documents contained
in the SCR will be cited as "SCR No. D
The
Court has also consulted the Philadelphia Court of
Common Pleas criminal docket sheets for
Petitioner's underlying criminal case in
Commonwealth v. Bishop, No. •
CP-51-CR-1208991-2002, (Phila. Cnty. Com. PI.),
available at
https://ujsportal.pacourts.us/DocketSheets/CPRepor
t.ashx?docketNumber=CP-51 -CR-1208991 -2002&d
nh=VvOGLnGloFZEeLC1PpPv5A%3d%3d (last
visited June 5, 2019) [hereinafter "Crim. Docket"].
3
As noted infra, the Court stayed Petitioner's habeas
for him to exhaust his claims raised in this July 11,
2014 PCRA Petition. (Pet'r's Mot. Stay, ECF No. 4;
Order, ECF No. 9).
4
Petitioner submitted an attached "Appendix A” to the
standard form § 2254 Habeas Petition where he
listed his Grounds for Relief and facts supporting his
claims.
5

1yccases

42 PA. CONS. STAT. § 9544(b) provides: "For
purposes of this subchapter, an issue is waived if
the petitioner could have raised it But failed to do so
before trial, at trial, during unitary review, on appeal
or in a prior state postconviction proceeding."
6
Petitioner would also now be barred by the one-year
PCRA statute of limitations from exhausting this
claim in state court, which is an independent and
adequate state rule precluding federal habeas
review of his claim. See, e.g., Roman v. Nish,
08-3351,2009 U.S. Dist. LEXIS 128048, 2009 WL
1117285, at *8 n.14 (E.D. Pa. Apr. 24, 2009) (noting
that "the PCRA's one-year statute of limitations .. .
constitutes an 'independent and adequate state
procedural rule' which precludes habeas relief.'')
(citing Veal v. Myers, 326 F. Supp. 2d 612, 618
(E.D. Pa. 2004)); see also Whitney v. Horn, 280
F,3d 240. 251 (3d Cir. 2002) ("It is now clear that
this one-year [PCRA] limitation is a jurisdictional rule
that precludes consideration of the merits of any
untimely PCRA petition.").
7
Assuming arguendo Petitioner's Ground One was
not procedurally defaulted, he has not shown how
his due process rights were violated. McFadden's
mother testified at trial that Gadson approached her
' and "said if I could get him [McFadden's] lawyer's
number. He wanted to talk to the lawyer, so he could
straighten out the information that was given at the
preliminary hearing." (N.T., Trial, 11/06/03, at
124:7-10; see also id. at 120:10-127:23). The
prosecutor objected on hearsay grounds when she
sought to testify about the contents of the
conversation. (Id. at 122:22-123:5 ("He approached
me and said --.. . Objection to what he said.")).
Petitioner has not shown how his due process rights
were violated by the trial court's decision to sustain a
proper hearsay objection. Accordingly, even if his
Ground One were not procedurally defaulted, relief
would not be warranted.
8
Federal habeas courts review the '"last reasoned
decision' of the state courts in the AEDPA context."
Bond v. Beard, 539 F.3d 256. 289-90 (3d Cir. 2008).
The Pennsylvania Superior Court adopted the trial
court's opinion in adjudicating this claim, so I will
review the reasoning of the trial court. (Bishop, No.
343 EDA 2004, slip op. at 5 (Pa. Super. Ct. July 22,
2005), SCR No. D4 (adopting trial court's reasoning
on Confrontation Clause claim)).
9

13

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions and terms and
conditions of the Matthew Bender Master Agreement.

A

•

i
4

.
The statute provides "[a] criminal homicide
constitutes murder of the first degree when it is
committed by an intentional killing." 18 PA. CONS.
STAT. § 2502(a). An "intentional killing" is "[kjilling
by means of poison, lying in wait, or by any other
kind of willful, deliberate, and premeditated killing."
Id. § 2502(d).
10
A person is guilty of criminal conspiracy if, with the
intent of promoting or facilitating its commission, he
"agrees with such other person . . . that they or one
or more of them will engage in conduct which
constitutes such crime . . . ; or [] agrees to aid such
other person ... in the planning or commission of
such crime." 18 PA. CONS. STAT. § 903(a)(1)-(2).
11
In Bruton, the Supreme Court held that, in a joint
trial, the admission of a non-testifying co-defendant's /
confession that incriminates the other co-defendant
violates the second co-defendant's right to
confrontation. 391 U.S. at 135-36.
12
Petitioner contends trial counsel was ineffective for
not taking action beyond his sustained objections.
He argues "trial counsel failed to request [a] curative
instruction and or a mistrial" and that he "failed to
request any remedial measure to dispel this
assurance that the witnesses were truthful." (Hab.
Pet., ECF No. 1, App'x A). In fact, the trial judge did
dispel any assurances, instructing the jury "[tjhere is
no evidence" supporting the prosecutor's remarks.
(N.T., Trial, 11/10/03, at 55:25-56:2). To the extent
Petitioner claims counsel was ineffective for failing to
request a mistrial, a mistrial is properly granted
under Pennsylvania law when "the alleged
prejudicial event may reasonably be said to deprive
the defendant of a fair and impartial trial."
Commonwealth v. Jones, 542 Pa. 464, 668 A.2d
491,503 (Pa. 1995) (citing Commonwealth v.
Brinkley, 505 Pa. 442, 480 A.2d 980, 986 (Pa.
1984)). The prosecutor’s remarks did not rise to
such a level, especially in light of trial counsel's
objections and the trial court's instructions. Thus,
trial counsel was not ineffective for failing to request
a mistrial. See United States v. Sanders, 165 F.3d
248, 252 (3d Cir. 1999) ("There can be no Sixth
Amendment deprivation of effective counsel based
on an attorney's failure to raise a meritless
argument.").
13

instruction after Officer Bunch’s testimony. (See
N.T., Trial, 11/05/03, at 86:17-18). The trial court
instructed the jury that "the fact that it is Officer
Bunch, a police officer who is called as someone
from that community, who happens to work in that
community, who knows the Defendants, doesn't
mean they have done anything wrong and I just
want to caution you about that. It just happens to be
that she works there." (Id. at 86:23-87:6).
14
Petitioner lists this claim as his Ground Seven;
however, he argues "Petitioner did not have the
benefit of effective representation at the post
conviction relief act stage which resulted in several
of the claims asserted within the instant habeas
petition to not have been exhausted in state court.”
(Hab. Pet., ECF No. 1, App'x A). He notes "[cjlaims
four (4), five (5), six (6), and seven (7) were not
presented to the state court due to post conviction
relief act counsel's ineffectiveness." (Id.). I have
analyzed Petitioner's Ground Seven as asserting
cause and prejudice under Martinez to excuse the
procedural default on Grounds Four, Five, and
Six-addressed supra Parts III.D.1-3-and as a
freestanding claim here.
UNITED STATES DISTRICT COURT OF THE THIRD CIRCUIT / 2019 / 374 F. Supp. 3d
462::McDonald v. Wells Fargo Bank, N.A.::April 16, 2019

Petitioner's counsel also requested a cautionary

lyccases

14

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions and terms and
conditions of the Matthew Bender Master Agreement.

